Office of
Inspector General



            Audit of FCA’s Financial Statements
                               Fiscal Year 2002
     




                                December 2002
                                    TABLE OF CONTENTS



Inspector General’s Transmittal Letter of Auditor’s Report ________________________ 1


Auditor’s Opinion Letter on the Financial Statements ____________________________ 4 


Auditor’s Opinion Letter on Internal Control ____________________________________ 5 


Auditor’s Opinion Letter on Compliance with 

Certain Laws and Regulations _______________________________________________6 





For the financial statements and related notes to each fiscal year’s financial audit report, refer to
FCA’s Performance and Accountability Report (PAR) for that year. The PARs can be found at
www.fca.gov/reports/performance_reports.html.
                                                         



Farm Credit Administration	                                                   Office of Inspector General
                                                                              1501 Farm Credit Drive
                                                                              McLean, Virginia 22102-5090
                                                                              (703) 883-4000




January 8, 2003

The Honorable Michael M. Reyna
Chairman of the Board
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Mr. Chairman:

This letter transmits Harper, Rains, Stokes & Knight’s, P.A. (HRSK) reports on the audit of the Farm
Credit Administration’s (FCA) financial statements for the fiscal year (FY) ended September 30, 2002.
This letter also incorporates a summary of what I believe are the most significant management and
performance challenges facing the agency as described in the Office of Inspector General (OIG)
Semiannual Report to Congress dated September 30, 2002.

HRSK issued an unqualified opinion. HRSK’s opined FCA’s principal financial statements present fairly, in
all material respects, the financial position of FCA as of September 30, 2002 and 2001, in conformity with
generally accepted accounting principles. HRSK issued two other reports and will issue a management
letter. The report on the internal control noted no matters involving the internal control and its operation
that HRSK considered to be material weaknesses. The HRSK report on compliance with laws and
regulations does not note any instances of noncompliance. HRSK noted other matters involving internal
control and its operations that will be reported to management in a separate letter.

The OIG tasked HRSK, an independent accounting firm, to perform the audit. The task order required
HRSK to perform the audit in accordance with Government Auditing Standards issued by the Comptroller
General of the United States, and the Office of Management and Budget Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. To ensure the quality of the work performed, the OIG:

•   reviewed HRSK’s approach and planning of the audit;
•   evaluated the qualifications and independence of the auditors;
•   monitored progress of the audit;
•   examined working papers; and
•   reviewed the audit report.

In our opinion, HRSK’s work provides a reasonable basis on which to render its December 6, 2002
opinion and we concur with the report.

As part of the agency Performance and Accountability Report, the Inspector General is required to
provide an opinion on the most serious management and performance challenges facing the agency. In
the most recent Semiannual Report to Congress, I outlined major challenges confronting the Farm Credit
Administration as it works to fulfill its mission. These challenges fall into two general categories. First are
the challenges related to the FCA’s core mission of ensuring a dependable supply of credit to agriculture




Audit of FCA’s 2002 Financial Statements 	                                                                Page 1
 
                                                        


through the institutions it has chartered. These challenges are often shaped and influenced by events
that are outside the control of the agency. Second, but no less important, are those challenges related to
the agency’s operations.

Farm Credit System Risk – The Farm Credit System (FCS) is a single industry lender and therefore is
vulnerable to economic swings in the industry. The FCA is challenged to balance the often-competing
demands of ensuring the FCS fulfills its public purpose, proactively examining risk in the regulated
institutions both individually and systemically, and controlling the cost of the regulator.

Organizational Leadership – The Farm Credit Act provides for a full-time, three-member Board of
Directors. The Board members are appointed by the President and confirmed by the Senate. The rapidly
changing complex financial and banking environment makes the Board’s task both challenging and
important. The Board must be able to engage in professional policy debate and set a sound course
for the agency.

The Board is in an important period of transition. On August 6, 2002, the Board returned to full strength
ending a 19-month period with only two Board members. In November 2002, Nancy C. Pellett replaced
Ann Jorgensen whose term had expired. The return to a full strength Board is an important element in
setting clear priorities and deliberating fully on the issues coming before the Board.

A relatively small, full-time Board also presents a challenge in terms of defining the roles and
responsibilities of the Board members relative to the governance of the agency. As the membership on
the Board changes, it needs to update its rules of operation to ensure it fulfills its statutory role in the
governance of FCA.

Strategic Planning – The FCA Strategic Plan was updated and revised in FY 2000 to reflect the FCA
Board’s priorities at that time. The current FCA Strategic Plan reflects an environment that has changed
significantly since it was adopted — the composition of the Board, the economy, the structure of the FCS,
and the President’s Management Agenda. The FCA Board’s challenge is to take a fresh look at the
substance of FCA’s mission, goals, and objectives. The Board will have the opportunity to set a course for
FCA that focuses on the results that it wants to achieve through clear and balanced performance
measures. The change in the Board’s composition will allow the new Board to develop a new perspective
that is not unduly constrained by past practices but builds on the experience of prior Boards.

Human Capital – The President identified human capital as a critically needed management reform in the
federal government. FCA needs to develop a comprehensive, integrated approach to human capital
issues. In light of the changes in the competitive environment, advances in technology, and the tenure of
its workforce; the agency will be challenged to closely evaluate business processes, their associated
costs, and alternatives available through competitive sourcing. The General Accounting Office’s (GAO)
High-Risk report outlines four pervasive human capital challenges that the government faces:

•   planning strategic human capital and organizational alignment;
•   planning for succession and leadership continuity;
•   acquiring and developing staffs whose size, skills, and deployment meet agency needs; and
•   creating results-oriented performance cultures.

Financial Management – Last year, FCA successfully implemented a new financial management system
using the services of the Department of Interior’s National Business Center. FCA received an unqualified
audit opinion. However, financial management success goes beyond an unqualified financial statement
audit opinion. Management’s challenge is to leverage the system to deliver timely financial information
that is critical for making well-informed management decisions. Meeting this challenge requires new
measures of success: measures such as delivering financial information that managers can use for day-
to-day operations; and developing reports that capture the full cost of programs and projects can help
bring about a transition.



Audit of FCA’s 2002 Financial Statements                                                                 Page 2
 
                                                     


Security – In the recent report on information security, the OIG found a strong foundation for security
practices. However, the speed of change in the security environment will be a challenge for all
government organizations. This is especially true for smaller organizations like FCA where an increased
emphasis on physical and information security will compete with program areas for tight budget funding;
therefore, security remains a major challenge for the agency.

Leveraging Technology – The agency has recognized that in order to meet the constraints of its budget, it
must maximize its return on investment in technology. FCA will need effective mechanisms to ensure that
current and future staff has the technical skills to use technology to operate in an efficient manner.

Respectfully,

/s/ Stephen G. Smith

Stephen G. Smith
Inspector General




Audit of FCA’s 2002 Financial Statements                                                           Page 3
 
                                                                                    


                                     INDEPENDENT AUDITOR’S REPORT 

                                      ON THE FINANCIAL STATEMENTS


FARM CREDIT ADMINISTRATION
The Board and Office of Inspector General

We have audited the balance sheets of the Farm Credit Administration (FCA) as of September 30, 2002
and 2001, and the statements of net cost, changes in net position, budgetary resources, and financing for
the years then ended. These financial statements are the responsibility of the FCA’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial statements contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin 01–02, “Audit Requirements for Federal Financial Statements.” These standards
require that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatements. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as, evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion the financial statements referred to above present fairly, in all material respects, the assets,
liabilities, and net position of the Farm Credit Administration as of September 30, 2002 and 2001, and the
net cost, changes in net position, budgetary resources, and reconciliation of net cost to budgetary
resources for the years then ended in conformity with accounting principles generally accepted in the
United States of America.

Our audits were conducted for the purpose of forming an opinion on the FY 2002 and 2001 principal
financial statements of the FCA. The accompanying financial information, discussed below, is not a
required part of the principal financial statements.

The Management Discussion and Analysis on pages 3; 7–9; 35–39; 56–70; and 76–79; and the Required
Supplemental Information on pages 101–102 is supplementary information required by the Federal
Accounting Standards Advisory Board. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of the
information. However, we did not audit the information and express no opinion on it. The information on
pages 4–6; 10–34; 40–55; and pages 103–110 is presented for purposes of additional analysis. Such
information has not been subjected to the auditing procedures applied in the audits of the financial
statements and, accordingly, we express no opinion on it.


/s/ Harper, Rains, Stokes & Knight, P.A.

December 6, 2002




Audit of FCA’s 2002 Financial Statements                                                                Page 4
 
                                                                                    

                                       INDEPENDENT AUDITOR’S REPORT 

                                           ON INTERNAL CONTROL 


FARM CREDIT ADMINISTRATION
The Board and Office of Inspector General

We have audited the Principal Statements (hereinafter referred to as “financial statements”) of the Farm
Credit Administration (FCA) as of and for the years ended September 30, 2002 and 2001, and have
issued our report thereon dated December 6, 2002. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States;
and, Office of Management and Budget (OMB) Bulletin No. 01–02, “Audit Requirements for Federal
Financial Statements.”

In planning and performing our audits, we considered FCA’s internal control over financial reporting by
obtaining an understanding of the agency’s internal control, determined whether internal controls had
been placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01–02. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations. The objective of our audits was not to provide assurance on internal control. Consequently,
we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize, and report financial
data consistent with the assertions by management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent limitations in
internal controls, misstatements, losses, or noncompliance may nevertheless occur and not be detected.
However, we noted no matters involving the internal control and its operation that we considered to be
material weaknesses as defined above.

With respect to internal control related to performance measures reported in the Performance Report, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin No. 01–02. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and, accordingly, we do not
provide an opinion on such controls.

We noted other matters involving the internal control and its operations that will be reported to the
management of FCA in a separate letter.

This report is intended solely for the information and use of the management of FCA, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.

/s/ Harper, Rains, Stokes & Knight, P.A.

December 6, 2002
Audit of FCA’s 2002 Financial Statements                                                                Page 5
 
                                                                                

                                   INDEPENDENT AUDITOR’S REPORT 

                              ON COMPLIANCE WITH LAWS AND REGULATIONS 


FARM CREDIT ADMINISTRATION
The Board and Office of Inspector General

We have audited the Principal Statements (hereinafter referred to as “financial statements”) of the Farm
Credit Administration (FCA) as of and for the years ended September 30, 2002 and 2001, and have
issued our report thereon dated December 6, 2002. We conducted our audits in accordance with: auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States;
and, Office of Management and Budget (OMB) Bulletin No. 01–02, “Audit Requirements for Federal
Financial Statements.”

The management of FCA is responsible for complying with laws and regulations applicable to the agency.
As part of obtaining reasonable assurance about whether the agency’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain other laws and regulations specified in OMB Bulletin No. 01–02,
including the requirements referred to in the Federal Financial Management Improvement Act (FFMIA) of
1996. We limited our tests of compliance to these provisions and we did not test compliance with all laws
and regulations applicable to FCA.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph
exclusive of FFMIA disclosed no instances of noncompliance with laws and regulations that are required
to be reported under Government Auditing Standards and OMB Bulletin No. 01–02.

Under FFMIA, we are required to report whether the agency’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable Federal
accounting standards, and the United States Government Standard General Ledger at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA section 803(a)
requirements.

The results of our tests disclosed no instances in which the agency’s financial management systems did
not substantially comply with the Federal financial management systems requirements, United States
Government Standard General Ledger at the transaction level and applicable Federal accounting
standards.

Providing an opinion on compliance with certain provisions of laws and regulations was not an objective
of our audits and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCA, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.

/s/ Harper, Rains, Stokes & Knight, P.A.

December 6, 2002




Audit of FCA’s 2002 Financial Statements                                                            Page 6
 
 




          R E P O R T                                          

    Fraud    |    Waste    |    Abuse    |    Mismanagement
 




                                                       

                    FARM CREDIT ADMINISTRATION
 
                    OFFICE OF INSPECTOR GENERAL
 
                                   

        • Phone:  Toll Free (800) 437‐7322; (703) 883‐4316
 
        • Fax:	       (703) 883‐4059
 
        • E‐mail:	  fca‐ig‐hotline@rcn.com 
        •	 Mail:   Farm Credit Administration 
                   Office of Inspector General 
                   1501 Farm Credit Drive
 
                   McLean, VA  22102‐5090
 




 
